HHS/OIG-Audit--"Review of Medical Assistance Payments Made by the New York State Department of Social Services to Eleven Free-Standing State-Operated Inpatient Alcoholism Treatment Centers, (A-02-91-01048)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medical Assistance Payments Made by the New York State Department of Social Services to Eleven Free-Standing
State-Operated Inpatient Alcoholism Treatment Centers," (A-02-91-01048)
July 23, 1992
Complete
Text of Report is available in PDF format (1.95 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report disclosed that the New York State Department of Social Services improperly claimed Federal financial
participation for Medicaid payments made to 11 free-standing State-operated inpatient alcoholism treatment centers (ATC)
during the period July 1, 1985 through October 31, 1990. We are recommending recovery of $3,423,172 (Federal share) and
that the State discontinue its practice of using Medicaid Management Information Systems provider identification numbers
assigned to various State-operated psychiatric centers to claim Medicaid reimbursement for inpatient services provided
in State-operated ATCs.